IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

MERWIN SMITH, )
)
Petitioner, ) On Petition for Writ of
) Certiorari to the United
vs. ) States Court of Appeals
) for the Eighth Circuit
UNITED STATES OF AMERICA, )
)
Respondent. )
AFFIDAVIT OF FILING

State of Missouri)
)SS
City of St. Louis)

Comes now Melissa K. Goymerac, being first duly sworn upon his oath,
deposes and states:

1. I am an attorney of record for Petitioner.

2. On this 20th day of May 2021, I filed Petitioner’s Petition for a Writ
of Certiorari plus its Appendix, Motion to Proceed In Forma Pauperis, Entry of
Appearance, Affidavit of Filing, plus this Proof of Service, with the Supreme Court
of the United States by depositing an envelope containing these documents with a
third-party commercial carrier for delivery within three days to:

Supreme Court of the United States

1 First Street N.E.
Washington, DC 20543
Further affiant sayeth not.

Respectfully submitted,

 
 
 

 

 

MELISSA K. GOYME!
Assistant Federal Public Defender
1010 Market, Suite 200

St. Louis, MO. 63101

(314) 241-1255

Fax: (314) 421-3177

ATTORNEY FOR PETITIONER

SUBSCRIBED AND SWORN TO before me this 2 Oday of May 2021

NOTARY PUBLIC |

My commission expires:

REBECCA S. NANNA
Expkes

 
